No. 20-454
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ALEX M. AZAR, II, SECRETARY OF HEALTH AND HUMAN
SERVICES, ET AL., PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE

_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage
prepaid, this 23rd day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,975 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 23, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0454
ALEX M. AZAR II, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
DREW A. HARKER
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVENUE, NW
WASHNIGTON, DC 20001
202-942-5022
DREW.HARKER@ARNOLDPORTER.COM
DANA PETERSEN MOORE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
BALTIMORE, MD 21212
410-396-3659
LAW.DANAPMOORE@BALTIMORECITY.GOV
SUZANNE SANGREE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
ROOM 156
BALTIMORE, MD 21212
443-388-2190
SUZANNE.SANGREE2@BALTIMORECITY.GO
V

PRISCILLA JOYCE SMITH
YALE LAW SCHOOL INFORMATION SOCIETY
PROJECT
319 STERLING PLACE
BROOKLYN, NY 11238
718-399-9241
PRISCILLA.SMITH@YALE.EDU
FAREN M. TANG
YALE LAW SCHOOL
127 WALL STREET
NEW HAVEN , CT 06511
203-432-1082
FAREN.TANG@YLSCLINICS.ORG
STEPHANIE TOTI
LAWYERING PROJECT
25 BROADWAY
9TH FLOOR
NEW YORK, NY 10004
516-967-4110
STOTI@LAWYERINGPROJECT.ORG
ANDREW TUTT
ARNOLD & PORTER
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001-3743
202-942-5242
ANDREW.TUTT@ARNOLDPORTER.COM

